Certification of Word Count

IN THE

Supreme Court of the United States
YOUNG COUNTY, TEXAS; YOUNG COUNTY SHERIFF’S
DEPARTMENT, PETITIONERS,
v.
NICOLE SANCHEZ; CASEY SIMPSON; EDWARD
LAROY SIMPSON, II, INDIVIDUALLY AND AS THE
REPRESENTATIVE OF THE ESTATE OF DIANA LYNN
SIMPSON, RESPONDENTS
BRIEF FOR AMICI CURIAE
NATIONAL INSTITUTE FOR JAIL OPERATIONS,
NATIONAL ASSOCIATION OF POLICE
ORGANIZATIONS, and WESTERN STATES SHERIFFS’
ASSOCIATION IN SUPPORT OF PETITIONERS

As required by Supreme Court Rule 33.1(h), I certify that the
document contains 3427 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on 10/30/2020
_____________________
ROD CURRY
CURRY & TAYLOR LLC
1726 NEVADA AVE NE
ST. PETERSBURG, FL 33703
(202) 350-9073

